<html>
<title> - NOMINATION OF HON. GORDON R. ENGLAND</title>
<body><pre>[Senate Hearing 108-46]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-46

 
                  NOMINATION OF HON. GORDON R. ENGLAND

=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                 ON THE

  NOMINATION OF HON. GORDON R. ENGLAND TO BE DEPUTY SECRETARY OF THE 
                    DEPARTMENT OF HOMELAND SECURITY

                               __________

                            JANUARY 24, 2003

                               __________

      Printed for the use of the Committee on Governmental Affairs


                       U.S. GOVERNMENT PRINTING OFFICE
                              WASHINGTON : 2003

85-337 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Deleware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

              Michael D. Bopp, Staff Director and Counsel
                    Johanna L. Hardy, Senior Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
        Michael L. Alexander, Minority Professional Staff Member
           Jennifer E. Hamilton, Minority Research Assistant
                     Darla D. Cassell, Chief Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Stevens..............................................     1
    Senator Pryor................................................     9
    Senator Levin................................................    11
Prepared statements:
    Senator Lieberman............................................    19
    Senator Shelby...............................................    20
    Senator Lautenberg...........................................    21

                                WITNESS
                        Friday, January 24, 2003

Hon. Gordon R. England to be Deputy Secretary of the Department 
  of Homeland Security:
    Testimony....................................................     5
    Prepared statement...........................................    23
    Biographical and professional information....................    28
    Responses to pre-hearing questions...........................    37
    Responses to post-hearing questions from:
      Senator Collins............................................    72
      Senator Specter............................................    86
      Senator Shelby.............................................    87
      Senator Lieberman..........................................    89
      Senator Lautenberg.........................................    96

                  NOMINATION OF HON. GORDON R. ENGLAND

                              ----------                              


                        FRIDAY, JANUARY 24, 2003

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Susan Collins, 
Chairman of the Committee, presiding.
    Present: Senators Collins, Stevens, Levin, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. Good morning. The Committee will come to 
order. I would like to go slightly out of order this morning by 
calling on the distinguished Senator from Alaska, the President 
Pro Temp of the Senate, who is going to have the honor this 
morning of introducing our nominee before he goes to preside 
over the Senate.
    Senator Stevens, if you would proceed with your comments.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Thank you very much, Madam Chairman. I do 
think it is an honor to have the opportunity to introduce to 
you and endorse Gordon England's nomination to be the Deputy 
Secretary of the Department of Homeland Security. I would ask 
you to put my full statement in the record as though read.
    Chairman Collins. Without objection.
    The prepared statement of Senator Stevens follows:

                 PREPARED STATEMENT OF SENATOR STEVENS

    Mr. Chairman, Senator Lieberman, and Members of the Committee, I am 
pleased to appear before you today to strongly endorse Gordon England's 
nomination to be the Deputy Secretary of the Department of Homeland 
Security.
    Secretary England is accompanied today by his wife, Dottie, and his 
daughter Megan.
    I want to thank them for all the support they have given him in his 
current position at the Pentagon.
    I know they will provide him that all-important support while he is 
at the Department of Homeland Security.
    Daughter Megan is the mother of two children--Isabel and Theodore, 
or ``Izzy'' and ``Theo.'' They are not here today, but I know the 
Secretary is justifiably proud of his grandchildren as a part of the 
family ``team.''
    I have gotten to know Gordon England well since he took over as the 
72nd Secretary of the Navy--almost 2 years ago. He is an extremely 
capable manager and has a proven leadership record in both the private 
and public sectors.
    During his time in the Pentagon, Gordon England has done a 
tremendous job representing the Nation. In fact, he is one of the most 
respected members of the Bush team and is especially well regarded 
within the Navy.
    He has earned the respect of uniformed and civilian members of the 
Department of Defense for a winning leadership style. Those on his 
staff know that he trusts them with responsibility but holds them to 
high standards.
    As Secretary of the Navy, Gordon England leads a force of 472,000 
sailors and 212,000 marines. He manages a fleet of 308 warships, 4,100 
aircraft and an annual budget of over $110 billion--a very complex 
responsibility.
    He understands that our country now faces an unprecedented array of 
difficult and dangerous challenges around the world.
    He has the right mix of skills and capabilities to help lead our 
new Department of Homeland Security to address those challenges.
    Gordon England is one of those rare people in Washington, D.C. who 
is truly willing to listen. This served him well as Secretary of the 
Navy and will make him even more successful as he and Tom Ridge pull 
together the many disparate agencies to create the Department of 
Homeland Security.
    Ialso think it is important to say that Gordon England fully 
recognizes the importance of Congress' oversight responsibilities with 
respect to the new Department.
    He understands that, without close cooperation with and support 
from Congress, the Department will hardly be able to perform its 
difficult duty of protecting the American homeland.
    I know that he will make it a high priority to have a good working 
relationship with the Congress.
    I am confident that the President has chosen the right leadership 
team to build this new Department. Gordon England will be a superb 
asset to Tom Ridge and I unequivocally give him my support.

    Senator Stevens. Secretary England is accompanied today by 
his wife Dottie and his daughter Megan, whom I have just met. I 
want to thank them for their support that they have given to my 
friend in his position at the Pentagon. I know they are going 
to provide him the all-important support while he is at the 
Department of Homeland Security. It is going to be a busy job 
for my friend.
    His daughter Megan is the mother of two children, Isabel 
and Theodore, or Izzy and Theo. Why don't you just call him 
Ted? [Laughter.]
    They are not here today but I know the Secretary is 
justifiably proud of his grandchildren and his whole family 
team.
    Now I have gotten to know Secretary England very well since 
he took over as the 72nd Secretary of the Department of the 
Navy. He is an extremely capable manager, Madam Chairman, and 
has a proven record of leadership in both the public and 
private sectors. During his time at the Pentagon, Gordon 
England has done a tremendous job in representing our Nation. 
He has been one of the most respected members of President 
Bush's team and especially well regarded within the Department 
of the Navy and the whole Pentagon. He has earned the respect 
of uniform and civilian members of the Department of Defense 
for a winning leadership style. Those on the staff know that he 
trusts them with responsibilities but holds them to very high 
standards.
    As the Secretary of the Navy, Gordon England has led a 
force of 472,000 sailors and 212,000 Marines. He has managed 
308 warships, 4,100 aircraft and an annual budget of over $110 
billion. That is a very complex responsibility. Senator Inouye 
and I, who have overseen the defense budget now for many years, 
really have learned to respect Secretary England. In fact were 
it not for a death in his family Senator Inouye would be with 
me today to recommend our friend.
    Secretary England understands that our country now faces an 
unprecedented array of difficult and dangerous challenges 
around the world, but he has the right mix of skills and 
capabilities to lead this new Department of Homeland Security 
and to address the challenges.
    It is extremely important to me to let you know that 
Secretary England understands the responsibilities of Congress 
in terms of oversight. He has always responded to us when we 
have asked questions and he has been more than forward in 
coming to us to explain problems before they really develop 
into difficulties with the Congress. He has served well as the 
Secretary of the Navy and I think he will serve even a better 
role, a greater role for the United States as he works with Tom 
Ridge and pulls together the very disparate agencies that we 
have created within the Department of Homeland Security.
    So I recommend him very highly, Madam Chairman. I thank you 
very much, my friend, and I hope you will excuse me.
    Chairman Collins. Thank you, Senator Stevens. Your high 
praise means a lot to, not only the nominee, but to the 
Committee as well.
    Today the Committee on Governmental Affairs is holding a 
hearing to consider the President's nomination of Secretary 
Gordon England to be the first Deputy Secretary of the 
Department of Homeland Security. One week ago this Committee 
considered the nomination of Tom Ridge to be the new Secretary 
of the Department, and on Wednesday the Senate voted 
unanimously to confirm Secretary Ridge in his new position. 
Gordon England will join Secretary Ridge at the helm of the new 
Department, which officially opens its doors today. My hope is 
that we will act very quickly to put the other half of this 
impressive team in place.
    The time for an ad hoc approach to homeland security has 
long since passed. We may not have fully realized how outmoded 
our approach truly was before September 11, but we certainly do 
now. And there is much work still to be done.
    The establishment of the new Department of Homeland 
Security will be the most significant restructuring of the 
Federal Government in more than 50 years. It will involve the 
merger of 22 agencies and some 170,000 Federal employees. 
Managing this new Department will pose extraordinary 
challenges. Indeed, in my judgment, Congress has not created 
two more challenging positions than Secretary and Deputy 
Secretary of the Department of Homeland Security since it 
established the Department of Defense in 1947.
    I have no doubt whatsoever that Secretary England is 
extremely well qualified for this challenge. Gordon England 
currently serves, as Senator Stevens indicated, as Secretary of 
the Navy, a position that he has held since May 2001. I have 
had the honor of working very closely with Secretary England in 
my position as a member of the Seapowers Subcommittee of the 
Senate Armed Services Committee so I can attest firsthand to 
his character and his extraordinary ability.
    Secretary England came to the Navy with an impressive 
portfolio of management experience. He served as executive vice 
president of General Dynamics Corporation at which he was 
responsible for two major sectors, information systems and 
international affairs. Earlier in his career, he served in 
various executive capacities at a number of divisions of 
General Dynamics. He holds a bachelor of science degree from 
the University of Maryland and a master's degree in business 
administration from Texas Christian University.
    But regarding his preparation for becoming Deputy Secretary 
for the Department of Homeland Security, it would be difficult 
to beat a tour as Secretary of the Navy. As Secretary, Gordon 
England headed a department with a budget of over $100 billion 
and consisting of 372,000 active-duty and 90,000 Reserve 
Sailors, and 172,000 active-duty and 40,000 Reserve Marines.
    The Department of Homeland Security will bring together a 
civilian workforce of about 170,000. That figure always causes 
us to question how this Department could be managed. Secretary 
England has already overseen 190,000 civilians in the Navy. His 
extensive experience in managing large complex operations in 
both the public and the private sectors will serve him well as 
Deputy Secretary for the Department of Homeland Security.
    Moreover, Secretary England's understanding of the 
Department of Defense will prove invaluable in developing the 
appropriate communications links and levels of coordination 
between the two Departments. The Department of Defense recently 
established the U.S. Northern Command, or NORCOM, to oversee 
and further develop land, aerospace, and sea-based military 
defenses of our homeland. It has also established a new 
Assistant Secretary of Homeland Security.
    It will be critical for the new Department of Homeland 
Security to have free-flowing and constant communication with 
the Department of Defense as each Department performs its 
mission in defense of our homeland. Secretary England's 
knowledge will help ensure that the two departments work as a 
team, not at cross purposes.
    Secretary England, I want to tell you that I believe our 
Nation is extremely fortunate to have you and Secretary Ridge 
leading this new Department. Both of you have the experience, 
the background, the conviction, and the character to take on 
this incredible challenge. I want to thank you for being 
willing to step up to the plate, and I also want to assure you 
that, as Chairman of this Committee, that I am committed to 
working with you and Secretary Ridge to make this new 
Department a success.
    At this point I would like to give Secretary England the 
opportunity to introduce his family members. Senator Stevens 
did that to some extent but if we could have them stand as you 
introduce them.
    Mr. England. Senator, thank you. Also, thank you for those 
very nice words. Yes, let me introduce my wife Dottie and my 
daughter Megan from Austin, Texas. She is the mother of my two 
great grandchildren.
    Chairman Collins. One of whom has been renamed Ted this 
morning, I believe. We are pleased to have you here this 
morning.
    Secretary England has filed responses to a biographical and 
financial questionnaire, answered prehearing questions 
submitted by the Committee, and had his financial statement 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record with 
the exception of the financial data which are on file and 
available for public inspection in the Committee offices. Our 
Committee require that all witnesses in nomination hearings 
give their testimony under oath, so Secretary England, I would 
ask that you stand and raise your right hand.
    [Witness sworn.]
    Secretary England, I believe you have a statement and I 
would call upon you to give it to us at this time.

STATEMENT OF HON. GORDON R. ENGLAND \1\ TO BE DEPUTY SECRETARY 
             OF THE DEPARTMENT OF HOMELAND SECURITY

    Mr. England. Madam Chair, thank you. First of all, thank 
you for the opportunity to be here, and all the Members of the 
Committee for giving me an opportunity to testify today. I do 
have a brief oral statement but I would ask that my written 
statement be submitted for the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Hon. England appears in the Appendix 
on page 23.
      Biographical and professional information appears in the Appendix 
on page 28.
      Responses to pre-hearing questions appears in the Appendix on 
page 37.
      Responses to post-hearing questions appears in the Appendix on 
page 72.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Mr. England. Thank you.
    Before beginning, let me first thank President Bush and 
Secretary Tom Ridge for their leadership and vision, and for 
placing their confidence in me. Homeland security relies on 
partnerships and it is an honor and most humbling that they 
would make me a partner in this great national effort.
    The Secretary has brought together an extraordinary team of 
patriots and public servants many of whom I have had the 
privilege to meet. No matter what agency or bureau they may 
hail from, they are resolute and united by the mission of 
homeland security, to protect the American people and our way 
of life from terrorism. For the first time we now have a single 
department whose primary mission is exactly that and which will 
help them do their jobs even better.
    The effort to secure the homeland can be summed up as 
follows: Prevent terrorist acts, identify and reduce our 
vulnerability to terrorist threats, and ensure our preparedness 
to effectively respond and recover while saving as many lives 
as possible in the event of a future attack. To achieve those 
goals, the President's national strategy for homeland security, 
the Nation's first, identifies six critical mission areas the 
new Department will focus on, intelligence and warning, 
domestic counterterrorism, border and transportation security, 
the protection of critical infrastructure and key assets, 
defense against catastrophic threats, and emergency 
preparedness and response. Significant progress has already 
been made and continues to be made in each of those mission 
areas.
    As Secretary Ridge indicated before this Committee, since 
September 11 this Nation has clearly improved its protective 
capabilities. Our maritime borders have been pushed farther 
from shore, our land border security has been tightened and 
walls torn down between the law enforcement and intelligence 
communities so we better know who is in our country and why. 
Tens of thousands of professional screeners have been deployed 
at every one of our commercial airports and thousands of air 
marshals are on our planes. We have acquired 1 million doses of 
antibiotics and instituted a major smallpox vaccination 
program.
    Working with Congress, billions of dollars have been 
allocated for bioterrorism training and food and water 
security, and the President continues to work with the Congress 
on his proposed 1,000 percent increase in funding for first 
responders. In short, as Secretary Ridge said, the homeland is 
indeed safer and better prepared today than on September 11, 
but it will be safer tomorrow as we develop new capabilities 
through the Department of Homeland Security.
    As Deputy Secretary, I will do whatever the President and 
the Secretary ask of me in order to achieve those goals and 
accomplish our mission of protecting the American people from 
terrorism. They have placed their confidence in me and I will 
do my utmost to repay that confidence. I believe my record and 
experience show that I am qualified for this task. I thank this 
Committee for their support and I look forward to taking your 
questions.
    Chairman Collins. Thank you very much, Mr. Secretary.
    Senator Pryor, in Senator Lieberman's absence you get to be 
the Ranking Member today and I wondered if you had any opening 
comments that you would like to make.
    Senator Pryor. I don't, thank you.
    Chairman Collins. Secretary England, your responses to all 
the prehearing questions are going to be placed in the record 
but pursuant to Committee practice before we begin questions 
there are three standard inquiries that I ask of all nominees.
    First, is there anything that you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. England. No, Madam Chairman, I do not know of any 
conflicts in my background.
    Chairman Collins. Second, do you know of anything personal 
or otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities as Deputy Secretary 
of Homeland Security?
    Mr. England. No, I am not aware of anything.
    Chairman Collins. Third, do you agree without reservation 
to respond to any reasonable summons to appear and testify 
before any duly constituted committee of Congress if you are 
confirmed?
    Mr. England. Yes, I do agree. In fact, Senator, I will tell 
you in my experience as Secretary of the Navy, it is very 
important that we have this very close relationship with the 
Senate because I know that the people in the field rely on that 
relationship for them to get their job done.
    That said, I have read that there are 88 committees in the 
Congress, so hopefully there are not 88 committees associated 
with it, but reasonably we will indeed interface with all the 
committees that is reasonable and practical to do so.
    Chairman Collins. Thank you. Secretary England, the 
Directorate of Information Analysis and Infrastructure 
Protection within that new Department in some ways is the 
central nervous system that will receive intelligence and 
information as required from the intelligence and law 
enforcement communities. The Department then decides what the 
appropriate response to that information is. Numerous reports 
have pointed to the need for better information sharing among 
Federal agencies and their State and local counterparts. In 
particular, just last month the Gilmore Commission concluded 
that intelligence and information sharing has only marginally 
improved since September 11.
    How do you intend to work with the intelligence and law 
enforcement communities and other Federal agencies to improve 
this information sharing?
    Mr. England. Madam Chair, first of all you are absolutely 
right, this is a cornerstone of the Department because, in my 
judgment, the way the Department will operate we will do 
vulnerability assessments, we will understand the consequences 
of those vulnerabilities, and then we need to understand the 
threat. That will provide us an analytical basis in terms of 
how we proceed in this Department. So you are absolutely right, 
this information sharing is absolutely crucial.
    Now the act itself makes all the intelligence data 
available to the Department of Homeland Security so we will 
receive all the data from all the agencies. We will work to 
have a collaborative environment to make sure the data is 
shared with us and that we also share data with other 
intelligence agencies.
    So in my judgment, we will have the process in place and we 
will work very hard to make sure we have this sharing because 
it is the foundation of how we will proceed in the Department 
of Homeland Security, but it does appear to me that the act 
puts in place the appropriate regulation and requirement that 
all this data be shared among the intelligence agencies. So I 
am confident that we will indeed be able to proceed very 
effectively in that area, Senator.
    Chairman Collins. One concern that I hear frequently 
expressed at the State and local level is that local law 
enforcement lacks access to information that might be useful in 
identifying terrorists in their midst. The police chief in 
Portland, Maine, Mike Chitwood, has told me many stories about 
his efforts to coordinate with the FBI, with other Federal law 
enforcement officials on matters of homeland security and he 
has told me that information sharing is the biggest obstacle 
that he faces.
    Similarly, in a recent report by the Council on Foreign 
Relations, which was led by former Senators Hart and Rudman, 
the statement was made that some 650,000 local and State police 
officers continue to operate in a virtual intelligence vacuum. 
How do you balance the need to get information data down at the 
lowest possible level with concerns that the more people who 
have access to sensitive information, the more vulnerable it 
may be to being compromised?
    Mr. England. Senator, yesterday I had the opportunity--
Secretary Ridge invited me to be on a phone conversation with 
him and he spoke to the homeland security advisors in all the 
States and he in fact addressed this issue because it is 
critical that we get the right intelligence at the local level. 
This is indeed a local program. It is very important that we 
make this program, not a Federal program, but a national 
program with local roots. Therefore, we will need to provide 
intelligence data at the local level.
    We will have to determine what is appropriate in each case 
and, frankly, I have not had the opportunity to look at all 
those areas. But it is evident to me that we do have to make 
information available at the local level if they are to be 
effective in carrying out their responsibilities. So there will 
be a program in place, and as you are aware, we do have an 
office for local and State government coordination so that 
office will be very important in working with the local 
personnel, both public and private, to make sure that we have 
the appropriate program in place. But it is important that we 
do this and we will have a program to bring this about.
    Chairman Collins. I am very glad to hear you say that. I 
had suggested, along with my colleagues Senator Carper and 
Senator Feingold, that we actually have a Department employee 
stationed in each of the 50 States. I think at a minimum we 
need a good point of contact in each State, and we do need to 
remember that the ones who are on the front lines and are the 
first responders are not people working at headquarters in 
Washington. They are our police officers, firefighters, and our 
emergency medical personnel. I am very pleased to hear you 
state that commitment.
    I want to raise just one other question with you before I 
turn to Senator Pryor for his questions during this round, and 
that has to do with privacy concerns about the new Department. 
Many of us have read about the project undertaken by the 
Department of Defense which has been called Total Information 
Awareness. On the one hand, Congress often criticizes Federal 
agencies for not having their computers talk to one another. On 
the other hand, when they do talk to one another and you start 
combining massive databases it raises concerns about the 
privacy rights of average Americans against whom there are no 
allegations of wrongdoing or suspicions.
    How will you ensure that the new Department, in its need to 
gather and assess more information, does not tread on the 
privacy rights and the civil liberties of Americans, rights 
that are the very foundation of our country?
    Mr. England. Senator, first of all, as Secretary of the 
Navy I have been acutely aware that for 226 years Americans 
have gone forth to protect this Nation, and protecting this 
Nation is protecting our liberties and our freedoms and our 
privacy and all those things we hold dear. So it is very 
important in this environment that we not sacrifice what we 
have fought for for 226 years.
    My feeling in this regard is that the privacy officer--as 
part of this Department there is a privacy officer--should be 
involved early in any programs, be involved early so we can 
make appropriate decisions, or bring those decisions to the 
Congress and the American people if indeed it is necessary that 
we have some sort of constraint, if that proves important in 
some circumstance, bring it before the American people so we 
can make those types of decisions. But we should have these 
vetted very early so they should not be issues as we proceed to 
protect and defend America.
    But you are absolutely right, this is very important to our 
people, this is fundamental to our Nation, so we will have to 
be very careful in terms of how we balance this. I can assure 
you, however, I am very sensitive to this matter and it will 
get my full attention and we will consult with the Congress and 
other parts of the government as we proceed with programs that 
would have any aspect of privacy invasions for Americans.
    Chairman Collins. Thank you, Mr. Secretary. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chair. Thank you for being 
here this morning.
    The first question or line of questions I have for you this 
morning is about your experience. You have a great resume and 
you bring a lot into this position. it is very encouraging to 
see what you have done and the things you have been involved 
with in the past. It seems like you have almost been preparing 
your whole life for this, and it is very encouraging to me as a 
member of this body. Have you ever been involved in 
establishing and setting up a new organization?
    Mr. England. Yes, I have, Senator, and I guess on both ends 
of this. At one point I was president of General Dynamics, now 
Lockheed, but at the time it was General Dynamics. It was about 
26,000 employees and we were bought by Lockheed. So we were 
basically merged into another company. So at that point I was 
being merged into another company, so I understand and 
recognize the difficulties of doing that if you happen to be 
someone who is being brought into another organization.
    Also, as the executive vice president of General Dynamics 
we bought a number of companies and we merged those into 
General Dynamics, and that was my responsibility. That was a 
new sector of the corporation. So I have worked on both sides 
of merging employees and responsibilities and I do understand 
the difficulties in that arena.
    Senator Pryor. You know from your corporate experience and 
your government experience, that in corporations there is what 
is subjectively known as a corporate culture where different 
companies over time pick up personalities and values that they 
have, that they run by and there is sort of a feel that you get 
inside a company when you work for a company or when you deal 
with a company. I think the same is true for government 
agencies. There is an agency culture.
    It seems to me one of your challenges will be to take the 
best of the cultures of the employees and the divisions that 
are coming together and try to harmonize those, but to try to 
take the best and to establish at the foundation of this agency 
a great agency culture. Would you agree with that?
    Mr. England. You are absolutely right, Senator. I agree 
with you. What you would like to do, in my judgment, is you 
want to create a culture superior to any of the other cultures 
so that people will want to be part of this new culture. So 
that is a leadership issue. It is a management issue to 
establish that new culture that people want to be part of. But 
you are absolutely right.
    Senator Pryor. How do you do that?
    Mr. England. You do, as you said, you provide an 
environment for people to excel. So in my judgment, you create 
this whole environment for people to excel and that means you 
give them authority and responsibility, you provide them the 
correct work environment, the correct tools, you respect their 
contributions. So you provide an environment of mutual respect.
    So, again, I believe this is a leadership issue that starts 
at the very top to set those standards that are important for 
the people who work there. But leaders do and can create better 
cultures for people, and I believe all successful organizations 
have leaders who are very sensitive to that.
    Senator Pryor. I agree with you on that. I do think that 
falls on your shoulders and a small handful of people's 
shoulders to take the agency and get it established and 
launched in a very positive and productive way. Really, you 
have a rare opportunity, in my mind--I do not want to say to 
set up an ideal agency. There maybe is no such thing as an 
ideal agency, but to take an agency from the ground up and make 
it a model agency for all the others to look to and see as the 
way the Federal Government should work and ought to work. I 
hope you will take that challenge and go to work every day and 
try to get the Department of Homeland Security launched in the 
way it should be.
    Mr. England. I can assure you that is the objective of the 
Secretary and myself. We would like this to be a model agency 
going forward for the Federal Government.
    Senator Pryor. In your written statement you said, success 
must be measured by the capabilities we create with the 
resources we have. Now I am not trying to put words in your 
mouth but are you implying there that you need more resources 
than you currently have?
    Mr. England. No, I am not. I am really implying that you 
need to be able to measure what you are achieving before you 
put more resources into something. So they are linked but we 
need a system of measuring capability. That is not 
organization, not the fluff. We need to actually measure 
capability; what have we done to protect and defend America. 
That is what is important.
    Senator Pryor. What measure will you use? What standard, 
what system, how do you establish that?
    Mr. England. Typically when you establish standards and 
metrics you do this with the people doing the work itself 
because they need to buy into these measures. So you establish 
the measures with the people themselves. It is very important 
that you have the right metrics and measures because it drives 
the behavior and the direction of the organization. So this 
will be something that is both a top-down and a bottom-up type 
process and it is something that is to be accomplished.
    My expectation is we would have some measures and metrics 
early in terms of the top level, but this is a long process. We 
will have to work this with the under secretaries, with the 
workforce themselves, but we will need measures and metrics. 
Definitely we will need to do that.
    Senator Pryor. It seems to me that one of the measures, and 
this is subjective and always the devil is in the details and 
in the definitions of trying to determine this, but it seems to 
me that one of the overarching measures should be that the new 
Department does the job better than the old system. That 
however you measure it, there should be some quantifiable way 
to determine that we are actually doing it better than we were 
in the old system because that is the whole purpose of the 
Department.
    Mr. England. You are absolutely right, sir. You do have to 
have that. You had the key words, a quantifiable way to 
measure. So when you say, something better than the old system, 
first you need a baseline to go from. So we need to establish 
that baseline and have measures as we proceed into the future. 
But you are absolutely right, Senator.
    Senator Pryor. I think you are up to the challenge and I 
look forward to watching you operate over the next few years 
there. It is just so important to our country, I believe it is 
important to the country that we get this established in the 
right way, and get it off firm footing, and I am excited about 
the prospect of you being there. Thank you.
    Mr. England. Thank you very much, Senator.
    Chairman Collins. Thank you, Senator Pryor. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you very much, Madam Chairman. Let me 
welcome Gordon England, an old friend. We worked together when 
he was working in Michigan, and then recently as Secretary of 
the Navy, where he has done a wonderful job. I look forward to 
your stewardship, your position here with this new Department. 
I think it is going to make it really critical in the success 
of this Department that the Secretary has a deputy such as 
yourself. I welcome you and your family. I congratulate you on 
your appointment.
    The challenge I know has been laid out by our Chairman, 
Senator Pryor, and Senator Stevens who introduced you, and 
perhaps others. You know very well what the challenge is before 
you, how many agencies have to be pieced together, how many 
employees have to work together, be coordinated, have to be 
protected in their legitimate rights. That is going to be a 
major issue that we are going to be looking at.
    There are a few things that I have raised along the way 
that have concerned me that I just want to highlight here for 
you. I cannot expect you to have the detailed answers to 
questions but I just want to share with you some of the 
concerns that I have had as this agency has been put together. 
Some of the privacy concerns I think have already been 
mentioned by our Chairman. I share those concerns.
    Yesterday we adopted an amendment which Senator Wyden 
introduced along with Senator Grassley and myself and others 
relative to a project called the Total Information Awareness 
program which has been funded to some extent by DARPA, which 
the Congress, at least through the Senate's action last night 
has indicated we have got some real problems with. This is a 
program to develop and integrate information technology 
enabling the intelligence community to sift through multiple 
databases, sources, passports, visas, work permits, driver's 
licenses, credit card transactions, airline tickets, car 
rentals, and gun purchases to detect and classify and to 
identify potential terrorist activities, which is fine. But the 
potential for the invasion of privacy into the lives of 
ordinary citizens is huge.
    We want you to be aware of the privacy concerns that this 
Committee and I think members of Congress generally have. We 
want to go after terrorists in the way which does not undermine 
or jeopardize the traditional rights of American citizens. We 
do not have to impinge on those basic rights and freedoms to do 
what we need to do to go after terrorism. So I just want to 
highlight that for you. I doubt even that you are familiar--
perhaps you are--with that one program that I mentioned, but 
that general concern I know has been highlighted by Senator 
Collins and others and I just wanted to add my voice to it.
    One of the major concerns that I have had along the way has 
to do with where is the responsibility going to be located for 
the analysis of foreign intelligence? There was a major failure 
prior to September 11 in terms of the CIA and FBI sharing 
information with each other, with local law enforcement, and 
with other parts of the law enforcement community. We had a 
major gap there. If that gap did not exist and if the 
communication had occurred linking information which various 
agencies had about people who were involved in the attack, that 
attack may have been prevented. That is how serious an issue 
this is.
    Currently that analysis is done at the CIA, at a place 
called the Counterterrorist Center, or the CTC, at the CIA. All 
of the law enforcement agencies are represented around the 
table at that CTC, and your agency will be represented.
    There is language in the law creating the new agency which 
suggests that the new agency will duplicate that function. When 
we had the new Secretary, Governor Ridge, in front of us, he 
made it very clear that is not the intention--that it is not 
his intention. That is well and good and I applaud him for it 
because we have got to focus responsibility and accountability. 
We cannot blur it. We cannot diffuse it. We have got to focus 
it, wherever it is going to be. I think it is probably in the 
right place, by the way, and that the CTC is the principal 
place for the analysis of foreign intelligence. But you are 
talking about thousands of pieces of information coming into 
hundreds of analysts. If we do it right once we will be lucky. 
If we just do that right once. But it is critically important. 
Probably the most important thing we can do is to get our 
intelligence act together.
    So as you undertake these new responsibilities I would hope 
that you would work with the governor to clarify where that 
responsibility is, through a statement of the governor, 
through, if necessary, an amendment to the statute. I can only 
say this, when that bill creating the Homeland Security 
Department came through this Committee there was a bipartisan 
effort to make it clear that that responsibility to analyze 
foreign intelligence would be focused, located principally in 
one place. We said where it is now, we want to improve it, 
streamline it, make sure it works well, but that was the place. 
If that is the wrong place, put it somewhere else. But we must 
have accountability. We must focus responsibility.
    That language was dropped when the bill went through the 
Congress. That helped to create a legislative record, which 
also can create some confusion. So it is not just the final 
language which is not clear and suggests that maybe you are 
going to duplicate the function that the CIA has, but the 
legislative history here, dropping language which would have 
clarified also helps to create, it seems to me, some confusion 
about that issue.
    So I again want to highlight that as a concern. Governor 
Ridge indicated very clearly what his understanding and intent 
was, and his willingness to make sure that there is no 
confusion in the law or in practice relative to where that 
responsibility is to analyze foreign intelligence. So I would 
ask you whether you will take a look at that issue and work 
with the Secretary to clarify anything that needs to be 
clarified.
    Mr. England. Absolutely. Understanding the Secretary did 
make that commitment to you to work with you, and that is my 
understanding, and certainly I will support the Secretary in 
that regard, Senator.
    Senator Levin. My final question, Madam Chair--oh, my time 
is up.
    Chairman Collins. If you would like to proceed, go ahead.
    Senator Levin. I just have one additional question. Thank 
you.
    There has been some concern at the General Accounting 
Office about access to records and information in this agency 
and as far as I am concerned, they have a good basis for their 
concern. My question to you is, will you pledge that you will 
work with the General Accounting Office, give them access to 
records and other information and to other Federal officials as 
necessary?
    Mr. England. I certainly will. I guess I do not understand 
all the security aspects. There are obviously some things 
perhaps we cannot discuss. But I have been working with the 
General Accounting Office for a lot of years and I have a good 
relationship and I will certainly continue that relationship, 
Senator.
    Senator Levin. They have the kind of clearance necessary, I 
can assure you. But just so long as you are aware of that 
problem. They are a watchdog. You folks are going to need some 
watchdogs.
    Chairman Collins. In addition to this Committee? 
[Laughter.]
    Senator Levin. Despite the, may I say, tenacity and 
brilliance of our Chairman--it is unsurpassed, and she is a 
fabulous watchdog in this Committee and some of its 
subcommittees have a good reputation in that regard--we need 
some watchdogs. We need some help, by the way. This Committee 
has used the GAO, as have some of our subcommittees as part of 
the oversight process. You need some oversight. You need some 
watchdogs. There is always resistance and there is always 
reluctance in the bureaucracy. It gets to the whistleblowing 
issue, it gets to a whole host of issues here which were not 
well done in the statute. But the GAO is critically important 
to us and I just want you to understand that and to work with 
them to help make it possible for you to have the oversight 
that you ought to welcome, any agency ought to welcome, and I 
hope that you will welcome it as well.
    Mr. England. I understand your point.
    Senator Levin. Thank you.
    Chairman Collins. Thank you, Senator Levin.
    Secretary England, I want to turn to the issue of port 
security. Last August, Robert Bonner, the Commissioner of the 
Customs Service, described the security problem posed by 
shipping container traffic. He stated, there is virtually no 
security for what is the primary system to transport global 
trade. The consequence of a terrorist incident using a 
container would be profound. If terrorists used a sea container 
to conceal a weapon of mass destruction and detonated it upon 
arrival at a port, the impact on global trade and the global 
economy would be immediate and devastating.
    Moreover, we all know that al-Qaeda likely knows how to use 
shipping containers. In October 2001, Italian authorities 
discovered a suspected operative hiding in a shipping container 
headed for Montreal. He had cell phones, a computer, an 
airplane mechanic's certificate and a plane ticket from 
Montreal to Egypt.
    We have taken some steps over the past few months to try to 
improve our port security, but what other initiatives or what 
priorities would you have in this area?
    Mr. England. First of all, Madam Chair, as Secretary of the 
Navy I do have a sensitivity about the whole port issue because 
it is also an issue with our Navy ports both here and around 
the world. But I do understand a number of initiatives have 
been taken. I do know, even our Navy worked with the Coast 
Guard immediately after September 11 to put some measures in 
place. I do not want to discuss in this open forum, but we did 
put measures in place after September 11, and understand that 
there have been measures put in place in terms of inspecting 
cargo at the source, not necessarily as it arrives in the 
United States, which certainly seems to be a very valid 
initiative.
    I think long term though, this is going to be a technology 
issue because there is a limit as to how many places you can 
physically inspect. So I think this will be, long term, a 
technology issue; better sensors, better detectors, better ways 
to inspect. In the meantime, we will rely, I believe, on the 
inspection overseas at the source and selective inspections as 
cargo comes into the United States.
    In terms of priorities, we do need to establish priorities 
and as I commented earlier, we need to look at the 
infrastructure vulnerabilities and then the consequences of our 
problem, and the probability of something happening in that 
area so we can establish some priorities in the Department, 
because it will not be possible for us on day one to just look 
at every single threat to America. So it is vitally important 
that IAIP section come up to speed very quickly and do this 
analysis so we can establish these priorities. That will drive 
the efforts of the Department, that analysis.
    Chairman Collins. I do believe that your experience as Navy 
Secretary is extremely helpful in this area. I view port 
security as being an extremely high priority and I look at our 
ports as being our biggest vulnerability. So I do hope that 
your actions will reflect that concern.
    Mr. England. They will. Thank you, Senator.
    Chairman Collins. The Maritime Transportation Security Act 
requires the implementation of background checks for a variety 
of port workers. That is another part of improving port 
security. Similarly, the USA Patriot Act requires those kinds 
of background checks for truckers carrying hazardous waste, yet 
a recent story in the Wall Street Journal suggests that not a 
single trucker nor a single longshoreman has been screened or 
has undergone any kind of background check, and that there is a 
lot of disagreement over who should be checked and whether 
individuals with a criminal history should be allowed to even 
have these kinds of jobs.
    Do you have any kind of timetable for implementing those 
regulations? The USA Patriot Act, in particular, has been law 
for quite some time now and it is of concern that it appears 
there is no progress in implementing these background checks.
    Mr. England. Senator, I am not familiar with that specific 
plan. I just have not been with this agency long enough to 
understand those specific schedules. But it is the law so it 
needs to be complied with, and I can assure you--I know when 
TSA comes into the Department that will be our responsibility 
and we will follow up on that. It is very important that we do 
those types of background checks so I will definitely have this 
as one of my action items, and as soon as I understand that 
schedule and the approach we will indeed get back with you, 
Senator.
    Chairman Collins. I would appreciate that. Finally, 
Secretary England, the new Department includes an Office of 
International Affairs and I think we can learn a lot from other 
countries, particularly Israel, which unfortunately has a long 
history of preparing for and responding to terrorist attacks. 
Recently I met with two constituents who worked for the Maine 
Community Policing Institute, and much to my surprise both had 
been to Israel for training for first responders dealing with a 
terrorist attack.
    How do you see the role of this office as far as harvesting 
the techniques or technologies that are available in other 
countries which might be useful to us in improving our homeland 
security?
    Mr. England. Madam Chair, this is international terrorism, 
so this is terrorism around the world, so a lot of countries 
are affected by international terrorism. It is important that 
we have a network around the world so we can share best 
practices, share technology, understand the kind of threats. 
The better we understand this internationally, we will be in a 
better position to protect and defend America. So I believe 
that is very important. We do have the special office for 
international. That office will be very important in terms of 
sharing our science and technology, understanding techniques 
developed in other countries, training could be shared between 
countries.
    So again, this is a global threat and it will require a 
global response. So a fundamental approach of this Department 
will be to work internationally in this regard, Senator.
    Chairman Collins. Thank you. Senator Pryor.
    Senator Pryor. Madam Chair, let me follow up on one of your 
questions a moment ago on port security. Now Arkansas is not 
really known as a port State but I do share your concerns about 
security and the overall impact it has on America's security. 
You mentioned that you think it may just boil down to a 
technology issue. Tell me what you mean by that.
    Mr. England. I am not sure it is just a technology issue, 
but it would seem to me that as time goes on we will need to 
develop better sensors and approaches. We do baggage screening 
at the airport today. That is basically technology does the 
baggage screening as opposed to people physically inspecting 
everyone's baggage. That would be very difficult, so technology 
has made that possible. We will need to look at similar 
approaches for international, and particularly detectors 
against specific types of threats.
    So the S&T will be the foundation, at least long term. I 
hope it provides us some benefit even short term, but certainly 
long term we need to focus our energies on better detectors and 
non-invasive type of inspection. So I believe that will be 
important for cargo coming in, also for personal baggage and 
the like. So technology long term will be the answer, I 
believe.
    Senator Pryor. Do you know where we are in developing that 
technology? Does it already exist or is being worked on right 
now?
    Mr. England. Senator, one of the first efforts of the S&T 
Department will be literally to survey all the Federal labs, 
all the universities, see what is available in private industry 
to see if we cannot bring together some new disparate 
technologies into one cohesive integrated approach. So we may 
be able to make some progress. That is my hope. I am not sure 
it is my expectation, but it is at least my hope that we can 
bring different technologies together to solve some of these 
problems. We will have to wait and see. That is still work to 
be accomplished.
    Senator Pryor. Right, I understand that.
    Now second line of question here relates to the collection 
of intelligence. It is kind of a practical question and that 
is, I know that the President gets very regular intelligence 
briefings. Will you all have a role in those briefings, do you 
believe?
    Mr. England. Senator, I do not know. I do not know what our 
role will be. I can get back to you with that answer but I have 
not been part of any of those conversations.
    Senator Pryor. One thing I am thinking of is that the 
Department of Homeland Security may from time to time have a 
different interpretation of intelligence information than do 
other agencies possibly. I am just wondering if there is a 
conflict of interpretation between your Department and other 
departments and other agencies. I guess I am wondering who will 
have the President's ear or will he get both interpretations, 
or do we know how that is going to work yet?
    Mr. England. Senator, I guess I would be surprised if there 
are different conclusions, because of I believe this is a very 
collaborative effort. I believe these are people of good faith 
working together to get the best answer. So I do not see that 
there is different analysis going on and arriving at different 
answers. This is the very best people we have working together 
to get the best answer for the Nation. So hopefully we are not 
going to have that situation that you are mentioning. My view 
is, again, very collaborative, very best people and we arrive 
at the very best answer for the country.
    Senator Pryor. I think that certainly should be the goal. 
It just seems to me that you all should have a seat at the 
table as the President and the White House are being briefed on 
all the intelligence and all the gathering that we are doing, 
not just in this country but around the world, and it should 
filter through your Department. Also I think you should have a 
seat at the table there when that is happening at the White 
House.
    Mr. England. We definitely have a seat at the table, I just 
do not know how data gets briefed to the senior executive of 
the country. But we definitely have a seat at the table.
    Senator Pryor. Madam Chair, that is all I have.
    Chairman Collins. Thank you very much, Senator Pryor.
    Secretary England, I have a few more questions but I am 
going to submit them for the record for you to answer in 
writing. I want to thank you very much for appearing before the 
Committee today. I think I can speak for my colleagues when I 
predict your speedy confirmation. I hope that the Committee 
will be able to have a markup on your nomination next week. I 
would ask that you promptly prepare answers to any questions 
that are submitted for the record. The hearing record, without 
objection, will be kept open until 5 p.m. today for the 
submission of any written questions or statements. I do intend 
to schedule a markup on your nomination next week and my hope 
is that the Senate will act very shortly thereafter to confirm 
you.
    Again, I want to thank you very much for being here today 
and for your willingness to continue to serve your country in 
such an important role.
    Mr. England. Madam Chair, thank you very much for your 
support and I look forward to being confirmed and working and 
contributing to the defense of America is this new capacity. 
Thank you very much for your support.
    Chairman Collins. Thank you. This hearing is now adjourned.
    [Whereupon, at 10:20 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                PREPARED STATEMENT OF SENATOR LIEBERMAN
    Thank you, Madame Chair. It's a pleasure to welcome Secretary 
England, who has earned my appreciation and respect as Secretary of the 
Navy. We have met in oversight hearings conducted by the Senate Armed 
Services Committee on which I serve, and by the Airland Subcommittee I 
have been privileged to chair.
    Based on that experience, I have no doubt, Secretary England, that 
you will earn this Committee's confidence and make a highly honorable 
and effective Deputy Secretary of Homeland Security. Your 
qualifications are not in question, nor is your dedication. Throughout 
your entire professional career, you have demonstrated a unique 
readiness, willingness, and ability to help make America safer.
    However, let me repeat something I said at the confirmation hearing 
for Governor--now Secretary--Ridge. It will not be enough for this 
Department to be led by public servants with good judgment, strong 
experience, and in-depth expertise in homeland security. Of course that 
helps tremendously. But more important than the quality of the officers 
is the quality of the orders--and in my view, since September 11, the 
Bush Administration has not proven itself bold enough, aggressive 
enough, or visionary enough to make America significantly safer.
    Let me give you three quick examples.
    First, intelligence. This Administration's failure to confront, 
much less fix, the fundamental problems that plague our intelligence 
community has been discouraging, disappointing, and I believe 
potentially dangerous.
    The Homeland Security Act requires the new Department to create a 
single, all-source intelligence unit that will analyze information 
regarding any and all terrorist threats against Americans here at home. 
Its job, according to the legislation, is to prevent any type of 
terrorist attack against American civilians in the United States.
    I'm troubled--and all Americans should be troubled--that the 
Administration seems to have decided, unilaterally, that the mission of 
the intelligence unit will be much narrower than that. Secretary Ridge 
is asserting that it will be focused on protecting our critical 
infrastructure--meaning our roads, information networks, energy grids, 
food distribution systems, and the like. Of course this is a critical 
priority, but I want to know--and the American people deserve to know--
how other types of threats will be handled.
    Right now, it appears that this Administration is designing an 
intelligence unit that in some cases will be more focused on protecting 
highways, bridges, and tunnels than on men, women, and children. But 
what happens if our government learns of a possible smallpox attack 
against the citizens of a major American city--an attack that isn't 
against our critical infrastructure at all? Under the Administration's 
current understanding of the new Department--which appears to have been 
shaped in deference to the FBI, CIA, and other entrenched interests 
inside the intelligence community--makes preventing such an attack 
secondary or peripheral responsibility of the new intelligence unit. To 
me, that's unbelievable and unacceptable.
    Second, the role of the military. As Secretary England understands 
well, our armed forces have tremendous resources. There are 1.3 million 
people on active military duty, most of them in the United States, and 
about 900,000 members of our Reserves and Guard. That's 2.2 million 
defense personnel. We expect the Department of Homeland Security to 
employ about 170,000 people.
    Taxpayers will invest almost $393 billion this year, money well 
spent, in their Department of Defense. The new homeland defense 
department will probably have a budget, and total resources, about one 
tenth that.
    Now of course our military's principal activities will be and must 
be outside our borders. As we are learning in the effort to disarm 
Iraq, we need our forces to be strong. We need them to be flexible. We 
need them to be ready at any time.
    But I believe at the same time we can and must us some of our 
defense assets more effectively here at home. Our Department of Defense 
has trained, disciplined, cohesive units with more experience in 
responding to crisis, more technology, and more expertise in dealing 
with chemical, biological, nuclear, and radiological weapons,than 
anybody else in government. It has created a new Northern Command to 
defend the United States. In this new kind of war taking place on a 
homeland battlefield, we must use all those resources optimally.
    I've put forward some ideas on how to do that, primarily by 
applying some of the expertise and experience of our National Guard. I 
hope the Administration engages in this discussion and comes forward 
with some idea of its own. Secretary England, your experience will make 
you an invaluable contributor to this discussion, and I look forward to 
hearing your views.
    Third, let me briefly discuss the role of the private sector.
    ``United we stand, divided we fall'' is not a cliche. In the case 
of the war against terrorism, it is a truism--and a warning for us all 
to heed. This war cannot be won by government alone. We must be one 
nation under collaboration, one nation under cooperation. I hope 
Secretary England, who has extensive experience as an engineer and 
executive in the aerospace industry, is ready to think creatively about 
how best to engage private industry to better protect us from 
terrorism--because in the past 16 months, the Bush Administration has 
been far too passive on this front.
    We're paying a price for that passivity. According to a report 
issued by the Council on Competitiveness in December, the vast majority 
of U.S. corporate executives do not see their companies as potential 
targets of terrorism. Only 53 percent of survey respondents indicated 
that they had made any increased security investments between 2001 and 
2002.
    And most of the security changes in the past year in the private 
sector have focused on ``guards, gates and guns''--in other words, on 
protecting the physical security of buildings alone. Despite 80 percent 
of the respondents to the council's survey indicating they had 
conducted vulnerability assessments related to their physical plants, 
barely half have studied the vulnerabilities in their telephone and 
shipping networks, electric power supplies, and supplier companies--and 
even fewer companies had made any changes based on these assessments.
    With 85 percent of our critical infrastructure owned by the private 
sector, this slow action ought to be a national concern, and correcting 
it ought to be a national priority.
    Another are I believe we should instantly expect more productive 
public-private partnerships is in vaccine development. I've put forward 
a comprehensive proposal to ignite private development of the 
countermeasures we'll need to protect ourselves from the dozens and 
dozens of bioterror agents that might be used against us. Those 
medicines, antidotes and vaccines won't materialize by accident. 
Getting that done will take leadership from Washington.
    Secretary England, thank you for your commitment to serve. Your 
country appreciates your public and private service over the course of 
the last 40 years, and values you focusing your experience, expertise, 
and management skill on this urgent new challenge.
    I look forward to being a partner in your efforts--but I also look 
forward to pushing and prodding this Administration, which has so far 
moved too slowly and cautiously in closing our dramatic homeland 
security vulnerabilities.
    Thank you.
                               __________
                  PREPARED STATEMENT OF SENATOR SHELBY
    Thank you, Madame Chair. I am glad to be here today.
    As I supported Governor Ridge's nomination to be Secretary of the 
new Department of Homeland Security (DHS), I too will support Gordon 
England to be its Deputy Secretary. I have known him for many years and 
firmly believe that he possesses the personal qualities to make him the 
strong leader this office requires. In addition, his experience as 
Secretary of the Navy and in the corporate private sector make him more 
than well-qualified for the difficult job he will face in the formation 
and day-to-day operations of the Department of Homeland Security.
    As we all know, the continuing threat of domestic terrorist attacks 
has placed the creation of the Department of Homeland Security on an 
accelerated schedule. In our haste to establish this Department, 
however, it is imperative that we do not lose sight of Department's 
mission--to protect Americans from the threat of terrorism. For the 
Department to truly make our country a safer place, it is crucial that 
the reorganization accomplish more than a mere shifting of agencies 
into one centralized bureaucracy/
    I am glad to see that Homeland Security Act enacted into law last 
year provides at least the statutory framework to avoid this pitfall by 
creating an all-source fusion center for terrorism-related intelligence 
within the new Department. I wish that I could say that I am confident 
that the establishment of this analytical center will lead to an open 
and trouble-free flow of information between the Intelligence Community 
and DHS. Unfortunately, my 8 years of experience on the Intelligence 
Committee, leads me to conclude otherwise. I have seen agencies such as 
the CIA hoard information from other agencies to the detriment of 
national security. I have also observed incidents where the FBI did not 
``know what it knew'' because of poor internal intelligence sharing. 
These sorts of breakdowns were a major problem identified by the joint 
Senate-House inquiry into the intelligence failures of September 11. If 
we do not learn from the mistakes that led to the tragic events of that 
infamous day, I believe we are destined to repeat them.
    In order to avoid the failings of the past, the Department 
ofHomeland Security will need to challenge the status quo. The 
institutional habits of the CIA, FBI, NSA and others in Intelligence 
Community will no doubt be hard to break. DHS must not allow the 
difficulty of doing so to prevent it from accomplishing its mission of 
protecting the homeland. As I have said before, the success of this 
department depends on its ability to effectively analyze unevaluated 
intelligence. For this reason, it is crucial for DHS to exercise the 
full extent of the powers granted to it by the Homeland Security Act--
especially Sec. 202 which gives the Secretary statutory authority to 
access all needed reports, analyses, and unevaluated intelligence 
collected by Federal agencies.
    While I am concerned about the willingness of the Intelligence 
Community to share information with DHS, I have no reservations about 
the abilities of Secretary England. In his capacity as Secretary of the 
Navy, he has served our country with honor and distinction. I believe 
that he will provide the leadership and wisdom needed to accomplish the 
enormous job he has been given. I therefore urge the Committee to act 
on Secretary England's nomination expeditiously so that it may be 
considered by the full Senate.
    I thank you Madame Chair for the opportunity to address the 
Committee this morning.
                               __________
                PREPARED STATEMENT OF SENATOR LAUTENBERG
    Madam Chair, I am pleased to be joining you, Senator Lieberman, and 
the other members of the Governmental Affairs Committee to consider the 
nomination of Navy Secretary England to be Deputy Secretary of the new 
Department of Homeland Security (DHS).
    Secretary England and I had a good visit the other day, and I look 
forward to supporting his nomination. I expect that his nomination will 
move through the Senate as quickly as Governor Ridge's did earlier this 
week.
    I would note that Secretary England had a distinguished career in 
the private sector at General dynamics before President Bush nominated 
him to head the Navy. I have always felt that successful businessmen 
make the best public servants!
    Secretary England is well-suited for his new position. He has an 
academic background in engineering and business. His private sector 
experience was with one of the Nation's principal defense contractors. 
And, as Secretary of the Navy, he has been managing nearly 900,000 
active duty and reserve Sailors and Marines and civilian employees. 
Moreover, as they say--there is the right way, the wrong way, and the 
Navy way. He certainly should be no stranger to dealing with strong-
willed government agencies.
    I would make several points for Secretary England as he takes on 
this new leadership role:
    First: Make sure the new Department works effectively with the FBI, 
CIA, and other intelligence agencies.
    It turns out that we had intelligence prior to 9-11 pointing to the 
potential targets, the method of attack, and even when they might 
occur. But because of the conflicting missions of our intelligence and 
law enforcement agencies and the unfortunate tendency to hoard 
information rather than share it we were caught unprepared.
    It is still very unclear how intelligence and law enforcement 
information will be integrated. Your Department faces an enormous 
challenge to insure the right information gets to the right people at 
the right time.
    In all candor, if we can't do that, then establishing the 
Department of Homeland Security will be an enormous waste of time and 
treasure. Even worse, it will promote a false sense of security.
    Second: Keeping America safe will be a challenge. Keeping America 
safe without trampling on the civil liberties that make us a free 
people will be an even bigger challenge. Even as you aggressively 
pursue getting the information you need, you must be aware of and guard 
our citizen's constitutional rights and protections.
    Finally, on a note closer to home, don't forget New Jersey.
    Nearly 700 New Jerseyans lost their lives as a result of the 9/11 
attacks. Because many New Jerseyans work in New York and Philadelphia, 
New Jerseyans would suffer from a terrorist assault on either city. New 
Jerseyans would be among the first responders arriving at the scene of 
an attack. New Jersey's medical and emergency response capabilities 
would be needed in the case of a severe attack.
    New Jersey itself has 8.5 million people and several large 
population centers.
    Moreover, we have plenty of critical infrastructure targets: ports, 
airports, tunnels, rail lines, chemical and nuclear power plants, etc.
    I want to make sure that New Jersey's critical role in defending 
against and responding to terrorist attacks in he Northeast is taken 
into account when the DHS allocates resources to the States to bolster 
their security.
    Secretary England, I want to wish you the best of luck in this new 
job, and I offer my pledge to work with you to meet these challenges 
that we all face together.
    Thank you, Madam Chairman.
    [GRAPHIC] [TIFF OMITTED] T5337.001
    
    [GRAPHIC] [TIFF OMITTED] T5337.002
    
    [GRAPHIC] [TIFF OMITTED] T5337.003
    
    [GRAPHIC] [TIFF OMITTED] T5337.004
    
    [GRAPHIC] [TIFF OMITTED] T5337.005
    
    [GRAPHIC] [TIFF OMITTED] T5337.085
    
    [GRAPHIC] [TIFF OMITTED] T5337.007
    
    [GRAPHIC] [TIFF OMITTED] T5337.008
    
    [GRAPHIC] [TIFF OMITTED] T5337.009
    
    [GRAPHIC] [TIFF OMITTED] T5337.010
    
    [GRAPHIC] [TIFF OMITTED] T5337.011
    
    [GRAPHIC] [TIFF OMITTED] T5337.012
    
    [GRAPHIC] [TIFF OMITTED] T5337.013
    
    [GRAPHIC] [TIFF OMITTED] T5337.014
    
    [GRAPHIC] [TIFF OMITTED] T5337.015
    
    [GRAPHIC] [TIFF OMITTED] T5337.016
    
    [GRAPHIC] [TIFF OMITTED] T5337.017
    
    [GRAPHIC] [TIFF OMITTED] T5337.018
    
    [GRAPHIC] [TIFF OMITTED] T5337.019
    
    [GRAPHIC] [TIFF OMITTED] T5337.020
    
    [GRAPHIC] [TIFF OMITTED] T5337.021
    
    [GRAPHIC] [TIFF OMITTED] T5337.022
    
    [GRAPHIC] [TIFF OMITTED] T5337.023
    
    [GRAPHIC] [TIFF OMITTED] T5337.024
    
    [GRAPHIC] [TIFF OMITTED] T5337.025
    
    [GRAPHIC] [TIFF OMITTED] T5337.026
    
    [GRAPHIC] [TIFF OMITTED] T5337.027
    
    [GRAPHIC] [TIFF OMITTED] T5337.028
    
    [GRAPHIC] [TIFF OMITTED] T5337.029
    
    [GRAPHIC] [TIFF OMITTED] T5337.030
    
    [GRAPHIC] [TIFF OMITTED] T5337.031
    
    [GRAPHIC] [TIFF OMITTED] T5337.032
    
    [GRAPHIC] [TIFF OMITTED] T5337.033
    
    [GRAPHIC] [TIFF OMITTED] T5337.034
    
    [GRAPHIC] [TIFF OMITTED] T5337.035
    
    [GRAPHIC] [TIFF OMITTED] T5337.036
    
    [GRAPHIC] [TIFF OMITTED] T5337.037
    
    [GRAPHIC] [TIFF OMITTED] T5337.038
    
    [GRAPHIC] [TIFF OMITTED] T5337.039
    
    [GRAPHIC] [TIFF OMITTED] T5337.040
    
    [GRAPHIC] [TIFF OMITTED] T5337.041
    
    [GRAPHIC] [TIFF OMITTED] T5337.042
    
    [GRAPHIC] [TIFF OMITTED] T5337.043
    
    [GRAPHIC] [TIFF OMITTED] T5337.044
    
    [GRAPHIC] [TIFF OMITTED] T5337.045
    
    [GRAPHIC] [TIFF OMITTED] T5337.046
    
    [GRAPHIC] [TIFF OMITTED] T5337.047
    
    [GRAPHIC] [TIFF OMITTED] T5337.048
    
    [GRAPHIC] [TIFF OMITTED] T5337.086
    
    [GRAPHIC] [TIFF OMITTED] T5337.049
    
    [GRAPHIC] [TIFF OMITTED] T5337.050
    
    [GRAPHIC] [TIFF OMITTED] T5337.051
    
    [GRAPHIC] [TIFF OMITTED] T5337.052
    
    [GRAPHIC] [TIFF OMITTED] T5337.053
    
    [GRAPHIC] [TIFF OMITTED] T5337.054
    
    [GRAPHIC] [TIFF OMITTED] T5337.055
    
    [GRAPHIC] [TIFF OMITTED] T5337.056
    
    [GRAPHIC] [TIFF OMITTED] T5337.057
    
    [GRAPHIC] [TIFF OMITTED] T5337.058
    
    [GRAPHIC] [TIFF OMITTED] T5337.059
    
    [GRAPHIC] [TIFF OMITTED] T5337.060
    
    [GRAPHIC] [TIFF OMITTED] T5337.061
    
    [GRAPHIC] [TIFF OMITTED] T5337.062
    
    [GRAPHIC] [TIFF OMITTED] T5337.063
    
    [GRAPHIC] [TIFF OMITTED] T5337.064
    
    [GRAPHIC] [TIFF OMITTED] T5337.065
    
    [GRAPHIC] [TIFF OMITTED] T5337.066
    
    [GRAPHIC] [TIFF OMITTED] T5337.067
    
    [GRAPHIC] [TIFF OMITTED] T5337.068
    
    [GRAPHIC] [TIFF OMITTED] T5337.069
    
    [GRAPHIC] [TIFF OMITTED] T5337.070
    
    [GRAPHIC] [TIFF OMITTED] T5337.071
    
    [GRAPHIC] [TIFF OMITTED] T5337.072
    
    [GRAPHIC] [TIFF OMITTED] T5337.073
    
    [GRAPHIC] [TIFF OMITTED] T5337.074
    
    [GRAPHIC] [TIFF OMITTED] T5337.075
    
    [GRAPHIC] [TIFF OMITTED] T5337.076
    
    [GRAPHIC] [TIFF OMITTED] T5337.077
    
    [GRAPHIC] [TIFF OMITTED] T5337.078
    
    [GRAPHIC] [TIFF OMITTED] T5337.079
    
    [GRAPHIC] [TIFF OMITTED] T5337.080
    
    [GRAPHIC] [TIFF OMITTED] T5337.081
    
    [GRAPHIC] [TIFF OMITTED] T5337.082
    
    [GRAPHIC] [TIFF OMITTED] T5337.083
    
    [GRAPHIC] [TIFF OMITTED] T5337.084
    
                                   - 

</pre></body></html>
